January 24, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Oversight Reviews – Stockton Processing and Distribution
         Center Plant Verified Drop Shipment Site – Stockton, CA
         (Report Number FF-MA-11-006)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) Group’s performance and conclusions at the Plant Verified
Drop Shipment (PVDS) Site, Stockton, CA (Project Number 11BR002FF001),
performed December 1, 2010. The Stockton Processing and Distribution Center (P&DC)
is in the Sacramento District of the Pacific Area. At the conclusion of FY 2011, we will
summarize the results for all reviews in reports to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission (PRC), which monitors and manages the Postal Service’s
compliance with SOX. The Postal Service established the Financial Control and Support
group to oversee the work of the FTC, which conducts tests of key financial reporting
controls. Senior Postal Service leaders use the results to identify and correct internal
control deficiencies and report the overall results to the PRC. We conducted this
oversight review in support of the independent accounting firm’s reliance on Postal
Service management’s testing, and overall audit opinions on the Postal Service’s
financial statements and internal controls over financial reporting.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.




                                   Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                          FF-MA-11-006
 Stockton Processing and Distribution Center
 Plant Verified Drop Shipment Site - Stockton, CA

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010 through
January 2011 in accordance with the Quality Standards for Investigations.1

Conclusion

Based on our review of FTC work, we determined the FTC properly conducted and
documented their examination of key SOX financial reporting controls. See Appendix A
for the results of our review.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Carla Tate, manager, at 510-
285-9026, or me at 510-285-9024.
 -Signed by Linda J. Libician-Welc
VERIFY authenticity with ApproveI



Linda J. Libician-Welch
Director, Field Financial – West

Attachments

cc: Douglas G. Germer
    Corporate Audit and Response Management




1
 These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of
1978 as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and
Efficiency (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Ivestigations have not
been amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                        2
                                             Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                                                 FF-MA-11-006
 Stockton Processing and Distribution Center
 Plant Verified Drop Shipment Site - Stockton, CA

                                                 APPENDIX A: REVIEW RESULTS

       Site Name                                                Stockton P&DC
       Finance Number-Unit ID                                   575260000
       Location Type                                            PVDS Site
       Scope Period Under Review                                October 1 - November 30, 2010
                                                                SOX Key Controls for PVDS Destinating,
       FTC Review Program Version and Date                      November 24, 2010
       FTC Team                                                 West




                                                                                                     Did FTC
                                                                    Did the OIG        Did FTC      adequately      Did the OIG agree
                                                                       have          perform the   document its         with FTC’s
                                                                    exceptions/         step in        work            exceptions/
                                                 Did FTC have        findings        accordance     performed        findings (or no
                                                  exceptions/        that FTC            to its       and the          exceptions/
FTC Review                FTC Review            findings in this     did not?         program?       results?           findings)?
Step/Control #          Step Description        step? (Yes/No)       (Yes/No)          (Yes/No)      (Yes/No)            (Yes/No)
FTC Review Step      Confirm that receiving
#29001/Control       personnel are verifying
#104CA70             the accuracy and                  No                No             Yes            Yes                 Yes
                     completeness of PS
                     Forms 8125 and 8017.




                                                                       3
                                                            Restricted Information
